NO.:

IN THE
SUPREME COURT OF THE UNITED STATES

Harold Warren - Petitioner;
v.
State of Indiana - Respondent;

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES SUPREME COURT

APPENDIX OF PETITIONER

Attorney for Petitioner:
Harold Warren #104516
Pendleton Correctional Facility
4490 West Reformatory Road
Pendleton, IN 46064-9001

Petitioner / pro se

• HINDEX TO APPENDICES
r

Appendix A - Indiana Supreme Court Order Denying Petition to Transfer
Appendix B - Indiana Court of,Appeals Opinion Affirming Post-Conviction Relief
Appeal
Appendix C - Marion County Superior Court Findings of Fact and Conclusion of Law
denying Post-Conviction Relief
t

4

Appendix D - Brief of Appellant (Indiana Court of Appeals)
Appendix E - Notice of AddiMSiai- Authorities (Indiana Court of Appeals)
t

Appetidix F - Appellee Brief\lndiana Court of Appeals)
Appendix G - feeply Briefof-Appellant (Indiana Court of Appeals)
\

Appendix H - Petition to Transfer (Indiana Supreme Court)
v

•V

} Suptr

Appendix I

- Brief in Resporfee to Transfer (Indiana Court of Appeals)

Appetidix J

- Reply Brief of Appellant in Support of Transfer (Indiana Court of Appeals)

Appefidix K - Ptast-Convicfuini^lief Evidentiary Hearing Transcripts
.ip]:'
a hr* A?.
A pi ,ii

,\p.
Ap- ;

\.
t *

A
R:

f ’App^* i.
'nmsrer { ;
t; c*'ip

*

Ap- : !
Api'cfk

A:
t r

:iT"

•v

i

A t

.'’P

/ ‘

v,>V !

I

.♦

!

f

V

s
.

t

;

Appendix A
Indiana Supreme Court Order Denying Petition to Transfer

j

3fn tlje

Hfnbtana Supreme Court
Court of Appeals Case No.
19A-PC-01604

Harold Warren,
Appellant(s),

Trial Court Case No.
49G01-1708-PC-28299

v.
State Of Indiana,
Appellee(s).

Order
This matter has come before the Indiana Supreme Court on a petition to transfer
jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following the issuance of a
decision by the Court of Appeals. The Court has reviewed the decision of the Court of Appeals,
and the submitted record on appeal, all briefs filed in the Court of Appeals, and all materials
filed in connection with the request to transfer jurisdiction have been made available to the
Court for review. Each participating member has had the opportunity to voice that Justice’s
views on the case in conference with the other Justices, and each participating member of the
Court has voted on the petition.
Being duly advised, the Court DENIES the petition to transfer.
Done at Indianapolis, Indiana, on 7/23/2020

Loretta H. Rush
Chief Justice of Indiana
Ail Justices concur, except Ivlassa, J., who did hot participate in the decision of inis matter.

I

Appendix B
Indiana Court of Appeals Opinion Affirming
Post-Conviction Relief Appeal

FILED
Apr 08 2020, 8:07 am

CLERK

Indiana Supreme Court
. Court of Appeals *
W and Tax Court ^

Attorney for Appellant

Attorneys for Appellee

Cynthia M. Carter
Law Office of Cynthia M. Carter, LLC
Indianapolis, Indiana

Curtis T. Hill, Jr.
Attorney General of Indiana
Jesse R. Drum
Caroline G. Templeton
Deputy Attorneys General
Indianapolis, Indiana

IN THE

COURT OF APPEALS OF INDIANA
Harold Warren,
Appellant-Petitioner,
v.
State of Indiana,
Appellee-Respondent

April 8, 2020
Court of Appeals Case No.
19A-PC-1604
Appeal from the Marion Superior
Court
The Honorable Barbara Crawford,
Judge
The Honorable Steven Rubick,
Magistrate
Trial Court Cause No.
46G01-1708-PC-28299

May, Judge.
[i]

Harold Warren appeals the trial court’s order denying his petition for
postconviction relief. He argues his Sixth Amendment right to effective

;_i

Court of Appeals of Indiana | Opinion 19A-PC-1604 I April 8,2020

Page 1 of 18

assistance of counsel was infringed because his trial counsel failed to thoroughly
investigate and present evidence implicating alternative suspects . We affirm.

Facts and Procedural History1
[2]

Jack Dorfman operated a small business on Washington Street in Indianapolis,
where he would purchase precious metals and cash checks. On January 7,
1999,a customer visited Dorfman’s shop and found Dorfman lying dead on the
floor from a gunshot wound. Police investigated the murder and subsequently
arrested Harold Warren. On January 14,1999, the State charged Warren with
murder,2 felony murder,3 and Class A felony robbery.4

[3]

Warren filed a petition for writ of habeas corpus and admission to bail. At the
hearing on the petition, Steve Jordan, the owner of a printing store located near
Dorfman’s shop, testified that on the morning of Dorfman’s murder, a black
pickup truck parked in the parking lot of his printing store . The truck remained
running and an individual got out of the pickup truck and walked in the
direction of Dorfman’s shop.5 The individual had medium-length hair, wore

We heard oral argument in this case on February 3, 2020, at the University of Southern Indiana in
Evansville. We commend counsel for their advocacy and thank the University of Southern Indiana’s faculty,
staff, and students for their attendance.
2 Ind. Code § 35-42-1-1 (1997).
3 Ind. Code § 35-42-1-1 (1997).
4 Ind. Code § 35-42-5-1 (1984).
5 Jordan did not testify regarding how many people were in the truck.
Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8, 2020

Page 2 of 18

blue jeans with a leather jacket, and was “maybe five ten, somewhere m that
neighborhood, dark hair, clean shaven, not very heavy, not real slender, just
medium build.” (Ex. AAA at 16.) When asked if the individual Jordan
described matched Warren’s appearance, Jordan answered, “Probably not.
{Id. at 17.) Dana Roberson also testified at the hearing. She gave an
incomplete report of her criminal history and confirmed that she had dated
Larry Warren (“Larry”), Harold Warren’s brother. She denied seeing Warren
on the day of Dorftnan’s murder. After Roberson’s brief background
testimony, the court implored Warren’s counsel, Carl L. Epstein, to “get to the
point” and Epstein ceased his examination. (Ex. BBB at 41.) The court denied
Warren’s petition for bail.
[4]

The court held a jury trial from February 7 through February 9, 2000. Epstem
did not subpoena either Larry or Roberson to testify at the trial. The jury
returned a verdict of guilty on all counts, and the court entered judgments of
conviction for murder and Class B felony robbery,6 which is a lesser-included
offense of the Class A felony robbery charged. The court sentenced Warren to
consecutive terms of sixty-five years for murder and twenty years for robbery,
for an aggregate executed term of eighty-five years in the Indiana Department
of Correction.

6 Ind. Code § 35-42-5-1 (1984).
Court of Appeals of Indiana | Opinion 19A-PC-1604 I April 8, 2020

Page 3 of 18

[5]

On direct appeal, our Indiana Supreme Court7 summarized the evidence
presented to the jury during Warren’s trial:
[T]he victim, Jack Dorfman, the proprietor of a small
Indianapolis store that purchased and sold jewelry and precious
metals and cashed checks, was killed by a single .22 caliber
gunshot wound to the head, probably fired from a revolver.
Three days after the murder, Paul Fancher had purchased a .22
caliber revolver from the defendant’s brother, Ron Warren, who
had obtained it from one of his brothers. After learning that the
defendant had been arrested for the murder, Fancher turned the
gun over to police. On the day before the murder, the defendant
had been in Dorfman’s store to sell some rings. After Dorfman
declined and directed that the defendant be escorted out of the
shop, the defendant told him: “I’ll be back. The defendant
admitted to police that he was in Dorfman’s store on the day of
the murder. After the murder, the defendant’s fingerprints were
discovered on a pawn ticket found on the counter of the shop,
and yet the defendant told police that he never could have left his
thumbprint on a pawn card because he had never pawned
anything. On the day of the murder, the defendant used
Dorfman’s credit cards at a liquor store, a Meijer store, a K-Mart
store, and a Radio Shack store.
Warren v. State, 757 N.E.2d 995, 999 (Ind. 2001). The Supreme Court affirmed
Warren’s convictions. Id. at 1001.

[6]

Warren filed a petition for postconviction relief on July 13, 2017. The petition
alleged Warren’s trial counsel, Epstein, provided constitutionally ineffective

7 At the time, the appellate rules allowed for a direct appeal to the Indiana Supreme Court because Warren
was sentenced to a term of greater than fifty years for a single offense. See Ind. Appellate Rule 4(A)(7)
(1999).
Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8, 2020

Page 4 of 18

assistance because he “failed to present crucial defense evidence, failed to hire
or consult expert witnesses, and failed to interview and subpoena key defense
witnesses.” (App. Vol. II at 9-10.) The postconviction court held an
evidentiary hearing, conducted over four non-consecutive days, on Warren s
petition. Epstein testified at the postconviction hearing.8 Epstein
acknowledged he was not able to invest as much time into preparing Warren s
case as he would have liked because he expended a lot of time and resources
preparing and trying a multi-week federal criminal trial, which concluded
shortly before Warren’s trial, and because his medical problems, including Type
2 diabetes and a heart problem, limited the amount of time Epstein could
devote to preparing for Warren’s trial. Epstein testified that if he had had more
time, he would have taken Roberson’s deposition. Epstein did not talk with
Roberson informally or take a taped statement from her before Warren’s trial.
Epstein acknowledged receiving Indianapolis Police Department interdepartment communications about fingerprint evidence in the Dorfman
murder, and he testified that he should have used the evidence in his arguments
at W arren’ s trial.10

8 Epstein’s bar license is currently suspended without automatic reinstatement. (Tr. Vol. II at 15.)
9 Currently, the department is known as the Indianapolis Metropolitan Police Department. However, at the
time Of the investigation into the Dorfman murder, the department was known as the Indianapolis Police
Department.
10 During Warren’s examination of Epstein at the post-conviction hearing, Warren marked as an exhibit and
questioned Epstein about Indianapolis Police Department inter-department communications regarding the
fingerprint evidence in the Dorfman murder. These inter-department communications were offered but not
admitted as evidence at the postconviction hearing.
Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8, 2020

Page 5 of 18

[7]

Sergeant Michael Knapp of the Indianapolis Metropolitan Police Department
also testified at the postconviction evidentiary hearing. Sergeant Knapp
analyzed the latent fingerprint evidence officers collected in connection with the
Dorfman murder. Sergeant Knapp received a pawn ticket with an inked
fingerprint on it and latent fingerprints from the scene of the murder. Sergeant
Knapp determined that Aaron Gill’s fingerprints matched latent fingerprints
recovered from the murder scene. A crime scene technician recovered those
latent fingerprints from the side of a clear cellophane bag found in the
backroom of Dorfman’s shop. Sergeant Knapp compared the other latent prints
to Warren’s fingerprints, and he determined the latent prints did not belong to
Warren. However, Sergeant Knapp determined the inked print on the pawn
ticket did belong to Warren.

[8]

Larry testified at the postconviction relief hearing that he and Roberson were
dating and living together at the time of Dorfman’s murder. On the morning of
Dorfman’s murder, Larry awoke about 8:30 am and found Roberson was not
home. Roberson returned to their residence at approximately 12:30 pm. Larry
testified that Roberson had multiple conversations with law enforcement in the
days after the Dorfman murder. Police officers came to their home and
questioned them about three days after Dorfman s murder, and a detective left
with Roberson. Larry testified that in the days following Dorfman’s murder,
Roberson appeared “very anxious.” (Tr. Vol. II at 79.) He also testified she
suddenly had a lot of money. Roberson used cash to purchase a recreational

Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8, 2020

Page 6 of 18

vehicle, had her black pickup truck painted grey, and took herself and Larry to
Florida.
[9]

Warren subpoenaed Roberson to appear at the evidentiary hearing. However,
Roberson did not appear at the first two days of the evidentiary hearing.
Roberson testified on the third day, but her testimony was suspended so she
could consult with an attorney. During her brief testimony, Roberson
confirmed that she spoke with Detective Alan Jones of the Indianapolis Police
Department about Warren. She also confirmed that she did not speak with
Epstein before Warren’s trial, other than when she testified in connection with
Warren’s petition for bail. Roberson was called to testify on the fourth day of
the postconviction evidentiary hearing, after the court appointed her counsel,
but on the advice of counsel, she invoked her right against self-incrimination
under the Fifth Amendment to the United States Constitution and did not
provide further testimony. Warren also testified at the post-conviction hearing
that he believed Epstein should have done more to investigate his case. He
stated that he wanted Epstein to talk to Roberson and Larry in preparing his
defense.

[10]

On June 12, 2019, the postconviction court issued an order with findings of fact
and conclusions of law denying Warren’s petition. The postconviction court
concluded:
Here [Warren] has raised the barest inference of Ms. Roberson
being associated with this crime and, more importantly in this
context, [Warren] has pointed to no material evidence which

i___ i

Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8,2020

Page 7 of 18

directly connects Ms. Roberson to the crime or the crime scene.
Without substantially more evidence, this Court cannot draw any
rational inference connecting the murder and the alleged
repainting of the truck, or connecting Dana Roberson’s
possession of an indeterminate amount of money at an
indeterminate point in time. Lacking this, this Court does not
find that trial counsel was ineffective for failing to subpoena
Dana Roberson at trial or in failing to further develop her as an
alternate suspect.
(Appellant’s App. Yol. H at 121.) Additionally, the postconviction court
concluded Epstein was not ineffective for failing to present Aaron Gill as an
alternate suspect because, other than Gill’s fingerprints being present at the
crime scene, there was no other material evidence connecting Gill to Dorfman’s
murder. The postconviction court also pointed out that Epstein raised the
specter of an alternative suspect, though not Roberson or Gill, when crossexamining Detective Jones during Warren’s criminal trial.

Discussion and Decision
[11]

The petitioner for postconviction relief must establish that he is entitled to relief
by a preponderance of the evidence. Timberlake v. State, 753 N.E.2d 591, 597
(Ind. 2001), reh’g denied, cert, denied52>1 U.S. 839 (2002). “Because he is now
appealing a negative judgment, to the extent his appeal turns on factual issues,
[the petitioner] must convince this Court that the evidence as a whole leads
unerringly and unmistakably to a decision opposite that reached by the
postconviction court.” Id. “Where the [postconviction] court has entered
findings of fact and conclusions of law, we accept the findings of fact unless
Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8, 2020

Page 8 of 18

clearly erroneous, but accord no deference [to] conclusions of law. ” Turner v.
State, 974 N.E.2d 575, 581 (Ind. Ct. App. 2012), trans. denied. We will reverse
the postconviction court’s decision only if the evidence is without conflict and
leads to a conclusion opposite that reached by the postconviction court. Id. at
581-82.

Ineffective Assistance of Counsel
[12]

If not raised on direct appeal, a criminal defendant may raise a claim of
ineffective assistance of counsel in a postconviction relief petition. Timberlake,
753 N.E.2d at 597. The Sixth Amendment to the United States Constitution
provides that in all criminal prosecutions, a defendant is entitled “to have the
assistance of counsel for his defense.” U.S. Const., Am. VI. This requires
counsel’s assistance be effective. Strickland v. Washington, 466 U.S. 668, 686
(1984), reh’g denied. There is a strong presumption that trial counsel provided
effective representation, and a petitioner must put forth strong evidence to rebut
that presumption. McCullough v. State, 973 N.E.2d 62, 74 (Ind. Ct. App. 2012),
trans. denied. “Isolated poor strategy, inexperience, or bad tactics does not
necessar ily constitute ineffective assistance of counsel.” Id. Rather, a petitioner
must show that trial counsel’s performance was deficient, and the petitioner
was prejudiced by the deficiency. Id. at 75.
When evaluating a defendant’s ineffective-assistance-of-counsel
claim, we apply the well-established, two-part Strickland test. The
defendant must prove: (1) counsel rendered deficient
performance, meaning counsel’s representation fell below an
objective standard of reasonableness as gauged by prevailing

i

i

Court of Appeals of Indiana | Opinion 19A-PC-1604 I April 8, 2020

Page 9 of 18

professional norms; and (2) counsel’s deficient performance
prejudiced the defendant, i.e., but for counsel’s errors the result
of the proceeding would have been different.
Bobadilla v. State, 117 N.E.3d 1272,1280 (Ind. 2019) (internal citation omitted).

1. Counsel's Performance
A. Investigation ofRoberson as Alternative Suspect
[13]

Warren argues his trial counsel, Epstein, was ineffective because Epstein did
not thoroughly investigate Roberson as an alternative suspect. An attorney
“has a duty to make a reasonable investigation or to make a reasonable decision

that the particular investigation is unnecessary.” Ritchie v. State, 875 N.E.2d
706, 719-720 (Ind. 2007). We give considerable deference to trial counsel’s
strategic and tactical decisions, but “in order to make a reasonable tactical
decision, counsel must have adequately investigated the client s case because
‘strategic choices made after less than complete investigation are reasonable
precisely to the extent that reasonable professional judgments support the
limitations on investigation.”’ Conner v. State, 711 N.E.2d 1238, 1248 (Ind.
1999) (quoting Strickland, 466 U.S. at 690-91), cert, denied 531 U.S. 829 (2000).
[14]

Warren argues Epstein was delinquent in not pursuing discovery in order to
obtain evidence of Roberson’s bad character and should have further
investigated the theory that Roberson murdered Dorfman. Even though
Epstein moved to compel the State to disclose Roberson’s criminal history and
related information, Epstein filed a motion in limine seeking to exclude
Roberson’s testimony before receiving the requested discovery. The requested
Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8, 2020

Page 10 of 18

discovery would have shown that Roberson was charged with Class D felony
theft11 in 1992 and had two misdemeanor theft convictions. The police spoke
with Roberson after Dorfman’s murder, and Warren contends that he was
arrested as a result of information Roberson gave the police.
[15]

Warren contends Epstein provided deficient performance by not investigating
Roberson more thoroughly and by failing to subpoena her. Epstein thought the
individual described by Jordan in his testimony at the bail hearing could have
been Roberson because she owned a black pickup truck and had the same build
as a small man. Epstein testified that “[p]erhaps [he] hadn’t done a good
enough job in terms of investigating Ms. Roberson.” (Tr. Vol. II at 25.)
Epstein also admitted at the postconviction hearing that he “kn[e]w or ha[d]
reason to believe” Roberson was a “fence. »12 {Id. at 43.)

[IS]

Additionally, Warren argues Epstein should have interviewed Larry or
subpoenaed him to be a witness. Larry testified at the postconviction relief
hearing that he lived with Roberson at the time of Dorfman’s murder, that
Roberson’s whereabouts at the time of the murder were unknown, that she had
her truck painted shortly after the murder, that she came into a large amount of
cash after the murder, and that they left for Florida after the murder. Larry also

11 Ind. Code § 35-43-4-2 (1986).
12 “Fence” is a colloquial term used to refer to “a receiver of stolen goods.” Fence, Merriam-Webster
https://www.merriam-webster.com/dictionary/fence [https://perma.CC/EWIS4-BXNP].

Court of Appeals of Indiana ) Opinion 19A-PC-1604 | April 8, 2020

Page 11 of 18

testified at the postconviction relief hearing that he believed Roberson had
multiple conversations with law enforcement concerning the Dorfman murder
and that she was trying to deflect blame from herself to Warren. Therefore,
Warren argues Epstein was ineffective because he did not adequately question
Larry in order to find out what Larry knew about the circumstances
surrounding the crime.
[17]

The State maintains that Epstein was not ineffective because the evidence
pointing to Roberson as an alternative suspect was inadmissible. As our Indiana
Supreme Court has explained:
Evidence of a third-party motive tends [to make] it less probable
that the defendant committed the crime, and is therefore relevant
under Rule of Evidence 401. Joyner v. State, 678 N.E.2d 386, 389
(Ind. 1997). However, this evidence may be excluded if its
probative value is out-weighed by unfair prejudice, confusion of
the issues, or the potential to mislead the jury. Ind. Evid. R. 403.
In the context of third-party motive evidence, these rules are
grounded in the widely-accepted principle that before evidence of
a third party is admissible, the defendant must show some
connection between the third party and the crime. See Holmes v.
South Carolina, 547 U.S. 319, 327 & n. *, 126 S. Ct. 1727,164
L.Ed.2d 503 (2006) (listing jurisdictions and quoting 41 C.J.S.,
Homicide § 216, at 56-58 (1991) (“Evidence tending to show the
commission by another person of the crime charged may be
introduced by accused when it is inconsistent with, and raises a
reasonable doubt of ‘ his own guilt; but frequently matters offered
in evidence for this purpose are so remote and lack such
connection with the crime that they are excluded.”)).

i__t

Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8, 2020

Page 12 of 18

Pelley v. State 901 N.E.2d494, 505 (Ind. 2009), reh’g denied] see also Lashbrook v.
State, 762 N.E.2d 756, 758 (Ind. 2002) (holding trial court did not abuse
discretion in excluding evidence that a third party made threatening comments
because there was no material evidence connecting the third party to the crime).
The State argues the evidence concerning Roberson presented at the
postconviction hearing would not have been admitted at Warren’s trial because
the evidence is speculative and does not directly connect Roberson to the crime.
[18]

However, while the evidence does not directly link Roberson to the crime, it
raises several red flags. Had Epstein interviewed Larry, he would have
discovered substantial information that casts suspicion on Roberson. Epstem
then could have deposed, interviewed, or subpoenaed Roberson. He could
have asked her where she was the morning of the murder, how many
conversations she had with law enforcement about the murder, how she was
able to purchase the recreational vehicle, why she decided to take a trip to
Florida with Larry shortly after the murder, whether she repainted her truck
grey, and if so, why she repainted her truck. Roberson might have invoked her
Fifth Amendment right against self-incrimination, denied Larry’s allegations, or
provided innocent explanations, but Epstein did not find out. Therefore, we
agree with Warren that Epstein’s performance was deficient regarding his
investigation of Roberson. See Siglarv. State, 541 N.E.2d 944, 946 (Ind. 1989)
(“Failure to interview defense witnesses prior to trial may constitute ineffective
assistance if it appears that such interviews would have produced something
substantive.”).
Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8, 2020

Page 13 of 18

B. Fingerprint Evidence
[19]

Warren also contends Epstein was ineffective because he failed to utilize
exculpatory fingerprint evidence. Specifically, Warren alleges “Mr. Epstein
failed to present evidence that fingerprints belonging to Aaron Gill, Gallery No.
470350, were found on cellophane in the backroom of Mr. Dorfman’s shop
near his body. Mr. Epstein was aware of this evidence but inexplicably failed to
use it.” (Appellant’s Br. at 24) (internal citations omitted). At the
postconviction hearing, Epstein testified:
Aaron Gill I might have suggested as an alternative suspect and I
might have requested more specific discovery pertaining to his
whereabouts on the occasion and any number of other things that
might have suggested somebody other than Mr. Warren shot Mr.
Dorfman.
(Tr. Vol. H at 36.)

[20]

Warren cites Fisher v. State, in which Fisher’s trial counsel failed to present at
trial evidence that had been elicited during Fisher’s juvenile waiver hearing
about three potential witnesses who failed to identify Fisher in a lineup. 878
N.E.2d 457, 464 (Ind. Ct. App. 2007), trans. denied. We held Fisher’s trial
counsel’s failure to elicit such testimony did not constitute deficient
performance or prejudice Fisher because Fisher’s trial counsel introduced
evidence on cross examination that one of the potential witnesses failed to
identify Fisher in a lineup and Fisher’s trial counsel cross-examined the victim
regarding her identification of Fisher. Id. We also held Fisher’s trial counsel’s
failure to elicit testimony that officers were unable to lift fingerprints from the
Court of Appeals of Indiana | Opinion 19A-PC-1604 I April 8,2020

Page 14 of 18

victim’s doorknob or telephone did not prejudice Fisher because those items
were routinely handled by multiple persons, making it difficult to lift
fingerprints off of them. Id. at 465.
[21]

Warren also cites Miller v. State, in which Miller argued that his trial counsel
was ineffective because he failed to identify and elicit testimony from a shoe
and tire print examiner that the shoe and tire prints found at the scene of a
murder did not match Miller’s shoes or his vehicle’s tires. 702 N.E.2d 1053,
1063-64 (Ind. 1998), reh’g denied, cert, denied 528 U.S. 1083 (2000). Our Indiana
Supreme Court held Miller’s trial counsel’s performance was not deficient and
did not prejudice Miller because the State elicited testimony from a police
officer that soil samples could not be connected with Miller’s car or shoes. Id.
at 1064.

[22]

Warren argues his case is different from both Fisher and Miller because Epstein
did not introduce evidence of Gill’s prints through the State s witnesses. The
State maintains the fingerprint evidence was inadmissible because there is no
evidence besides the presence of Gill’s fingerprints on a bag in the shop that
connects Gill to the robbery and murder. The State also argues it is not
surprising that someone else’s fingerprints would be found on cellophane wrap
in Dorfman’s store given the nature of Dorfman’s business. Nonetheless, we
hold the possible presence of someone other than Warren at the crime scene is a
lead worth investigating because it suggests a possible alternative perpetrator.
See Shuemak v. State, 258 N.E.2d 158,159 (Ind. 1970) (noting “it is universally

Court of Appeals of Indiana | Opinion 19A-PC-1604 j April 8,2020

Page 15 of 18

v

recognized a finger, palm, or bare footprint found in the place where a crime
was committed may be sufficient proof of identity”).

2. Probability of Different Outcome
[23]

Having determined that trial counsel’s performance was deficient, we must
evaluate whether “there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. A
reasonable probability is a probability sufficient to undermine confidence in the
outcome.” Strickland, 466 U.S. at 694. In effect, Warren must show his trial
counsel’s failures were so prejudicial they denied him a fair trial. Turner v. State,
669 N.E.2d 1024, 1027 (Ind. Ct. App. 1996), reh’gdenied, trans. denied.

[24]

The State presented substantial evidence implicating Warren. Warren used
Dorfman’s credit cards on the day of the murder. Warren went into Emerson
Liquors on January 7,1999, and purchased alcohol and cigarettes using one of
Dorfman’s credit cards. He also used Dorfman’s credit cards at a Meijer store
and a Kmart store. Moreover, he tried to purchase items at a Radio Shack store
with Dorfman’s credit cards. Even before Warren presented Dorfman’s credit
card, the Radio Shack employees were suspicious because Warren’s interest
jumped from item to item, and Warren put the hood of his jacket up over his
head when he saw a visible camera outside the restroom. When Dorfman’s
card was declined, Warren threw down another credit card that belonged to
Dorftnan for the clerk to try. Warren left the store without taking the credit
cards with him, without completing a purchase and without waiting for the
cashier to try the second card. Also, the day before the murder, Warren had
Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8, 2020

Page 16 of 18

,

been in Dorfman’s shop and announced he would “be back” as he was escorted
out of the shop. Warren, 757 N.E.2d at 999 .
[25]

Warren’s inked fingerprint was found on a pawn card at the scene of the
murder, and no other pawn cards with inked fingerprints on them were found at
the scene. Dorfman’s friend Craig Cross testified that Dorfman would not
leave completed pawn cards lying around his store, and he would generally
mail the pawn cards to the Indianapolis Police Department within a day of
receiving them. Detective Alan Jones interrogated Warren after Dorfman’s
murder. Warren admitted visiting Dorfman’s store. Warren told Detective
Jones
that as he was leaving the store he slipped on the ice and when he
fell he found a plastic bag containing credit cards and some gold.
[Detective Jones] asked him specifically what he did with the
credit cards and he said that he threw them away. [Detective
Jones] then asked him if he had used them at all and he said that
he had not, that that was illegal.
(Prior Case-Record of Proceedings Vol. m at 687.) Warren denied ever
pawning anything at Dorfman’s store or filling out a pawn card.

[26]

Additionally, a .22 caliber gun killed Dorfman, and Paul Fancher bought a .22
caliber revolver from one of Warren’s brothers shortly after the murder. Also,
notably, while the evidence revealed at the post-conviction relief hearing
potentially implicates other individuals, it does not exonerate Warren. Even
though Warren’s trial counsel’s performance was deficient, he has failed to
show a reasonable likelihood the result of his trial would have been different.
Court ofAppeals of Indiana | Opinion 19A-PC-1604 I April 8, 2020

Page 17 of 18

Therefore, we hold he is not entitled to post-conviction relief. See Williams v.
State, 706 N.E.2d 149, 156 (Ind. 1999) (holding even if defendant’s trial
attorneys would have more thoroughly investigated blood evidence, they would
not have been able to present information to the jury significantly different from
that provided by the State’s witnesses), reh’gdenied, cert, denied 529 U.S. 1113
(2000).

Conclusion
[27]

Warren’s trial counsel acknowledges he did not adequately investigate a
potential alternative suspect or follow-up on a lead that another individual’s
fingerprints were present at the scene of Dorftnan’s murder. However, despite
trial counsel’s deficient performance, we cannot say there was a reasonable
probability the outcome of Warren’s trial would have been different because of
the overwhelming evidence of Warren’s guilt presented at trial. We accordingly
affirm.

[28]

Affirmed.

Bailey, J., and Brown, J., concur.

I

Court of Appeals of Indiana | Opinion 19A-PC-1604 | April 8, 2020

Page 18 of 18

%•

I

Appendix C
Marion County Superior Court Findings of Fact and Conclusion
of Law denying Post-Conviction Relief

STATE OF INDIANA
COUNTY OF MARION

STATE OF INDIANA,
Plaintiff,
v.

HAROLD WARREN,
Defendant.

)
)
)

)
)
)
)
)
)
)
)
)

IN MARION COUNTY SUPERIOR COURT
CRIMINAL DIVISION
CAUSE NO. 49G01-1708-PC-028299

JL JL JL»d

@ JUN 11 ?019
CL£ui< OF THE MARION CIRCUIT COUITT

FINDINGS OF FACT AND CONCLUSIONS
OF LAW DENYING POST-CONVICTION RELIEF
The Court, having heard evidence and argument on the pending Petition for
Post-Conviction Relief, and having reviewed the file herein and being duly advised,
now FINDS:
FINDINGS OF FACT
1.

On January 15, 1999, Defendant was formally charged with one count of

Murder/F; one count of Felony Murder/F; one count of Robbery/FA; one count of
Possession of a Handgun with an Obliterated Serial Number/FC; and one count of
Fraud/FD. On February 7, 2000 the case proceeded to jury trial on the murder and
robbery counts. The jury found Defendant guilty as charged and, thereafter, on April
18, 2000 the Court sentenced him to an aggregate executed sentence of 85 years.
2.

Defendant appealed his conviction and sentence directly to the Indiana

Supreme Court and on appeal argued that the trial court erred by admitting evidence

I

regarding the purchase of a handgun and admitting certain opinion evidence. He

also argued the trial court erred by placing limitations on the cross-examination of a
witness and by the court’s ex parte response to an inattentive juror. Ultimately the
Supreme Court affirmed the rulings of the trial court. Warren v. State, 757 N.E.2d
995 (Ind. 2001).
3.

As found by the Indiana Supreme Court, the facts underlying Defendant’s

conviction are as follows:

...[T]he jury heard evidence that the victim, Jack Dorfman, the
proprietor of a small Indianapolis store that purchased and sold
jewelry and precious metals and cashed checks, was killed by a single
.22 caliber gunshot wound to the head, probably fired from a revolver.
Three days after the murder, Paul Fancher had purchased a .22 caliber
revolver from the defendant's brother, Ron Warren, who had obtained
it from one of his brothers. After learning that the defendant had been
arrested for the murder, Fancher turned the gun over to police. On the
day before the murder, the defendant had been in Dorfman's store to
sell some rings. After Dorfman declined and directed that the
defendant be escorted out of the shop, the defendant told him: "I'll be
back." The defendant admitted to police that he was in Dorfman's store
on the day of the murder. After the murder, the defendant's
fingerprints were discovered on a pawn ticket found on the counter of
the shop, and yet the defendant told police that he never could have
left his thumbprint on a pawn card because he had never pawned
anything. On the day of the murder, the defendant used Dorfman's
credit cards at a liquor store, a Meijer store, a K-Mart store, and a
Radio Shack store.
Warren v. State, 757 N.E.2d 995, 999 (Ind. 2001)
4.

On July 13, 2017, Defendant filed a petition for post-conviction relief,

which was amended on March 30, 2018. By his petition, Defendant claims he
received ineffective assistance from his trial counsel.
5.

The Court held evidentiary hearings on April 24, 2018; July 31, 2018;

November 13, 2018 and on December 18, 2018.

Defendant presented

testimony from his trial counsel and his appellate counsel. He also presented
testimony from IMPD Sgt. Michael Knapp, his brother Larry Warren and
witness Dana Roberson.

Additionally, Defendant admitted the record of

proceedings and a transcript of the pretrial Let to Bail hearing, as well as the
criminal history of Aaron Gill.
6.

For the reasons discussed below, the Court finds that the facts are with

the State and against Defendant.
CONCLUSIONS OF LAW
1. Standard of Review:
Post-conviction relief is a collateral attack on the validity of a criminal conviction,
and the petitioner carries the burden of proof. Timberlake v. State, 753 N.E.2d 591,
597 (Ind. 2001). This collateral challenge to the conviction is limited to the grounds
enumerated in the post-conviction rules. In order to grant relief, the Court must find
by a preponderance of the evidence that a petitioner is entitled to relief under the
post-conviction rules.
2. Ineffective Assistance of Trial Counsel
Defendant claims that he received ineffective assistance from his trial counsel. In
order to prevail on his post-conviction claim that his Sixth Amendment right to
effective assistance of counsel was violated, a petitioner must establish the two
components from Strickland v. Washington, 466 U.S. 668 (1984). Wesley v. State, 788
N.E.2d 1247, 1252 (Ind. 2003) (citing Williams v. Taylor, 529 U.S. 362, 390 (2000)
(parallel citations omitted)).

First, Defendant must show defense counsel’s performance was deficient, which
“requires showing that counsel’s representation fell below an objective standard of
reasonableness and that counsel made errors so serious that counsel was not
functioning as ‘counsel’ guaranteed to the defendant by the Sixth Amendment.” Id.
(citing Strickland, 466 U.S. at 687-88). This objective standard of reasonableness is
based on “prevailing professional norms.” Id.
Second, Defendant must show the deficient performance prejudiced the defense.
Id. Prejudice is proven by showing counsel’s errors were so serious as to deprive the
defendant of a fair trial, a failing so severe as to render the result unreliable. Id. In
other words, Defendant must show there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of his trial would be different. Id.

A

reasonable probability is a probability sufficient to undermine confidence in the
outcome. Id. Furthermore, the two prongs are separate and independent inquiries
and if a court can “dispose of an ineffectiveness claim on the ground of lack of
sufficient prejudice ... that course should be followed.” Timberlake, 753 N.E.2d at 603
(citing Williams v. State, 706 N.E.2d 149, 154 (Ind. 1999) (quoting Strickland, 466
U.S. at 697)).
Defendant alleges that his trial counsel was ineffective for failing to present
several witnesses at trial. As a general rule, the decision as to which witnesses the
defense calls is one of trial strategy. Grigsby v. State (1986), Ind., 503 N.E.2d 394;
Marsillett v. State (1986), Ind., 495 N.E.2d 699. It is well-established that trial
strategy is not subject to attack through an ineffective assistance of counsel claim,
i

unless the strategy is so deficient or unreasonable as to fall outside of the objective
standard of reasonableness. Autrey v. State, 700 N.E.2d 1140, 1141 (Ind. 1998) (citing
Garrett u. State, 602 N.E.2d 139, 142 (Ind. 1992)). Moreover, “When ineffective
assistance of counsel is alleged and premised on the attorney’s failure to present
witnesses, it is incumbent upon the petitioner to offer evidence as to who the
witnesses were and what their testimony would have been.” Lee v. State, 694 N.E.2d
719, 722 (Ind. 1998) (quoting Lowery v. State, 640 N.E.2d 1031, 1047 (Ind. 1994)).
In his post-conviction petition, Defendant argues that his trial counsel was
ineffective for failing to present evidence of possible “alternate suspects”, or a “third
party motive” for the crime. Defendant argues that he was entitled to present a full
defense to the charges, and his attorney’s failure to implicate other individuals in the
crime denied him this right. It may be true that evidence of a third-party motive
tends makes it less probable that the defendant committed the crime and is therefore
relevant under Rule of Evidence 401. Joyner v. State, 678 N.E.2d 386, 389 (Ind.
1997). However, the cases make it clear that this evidence may be excluded if its
probative value is out-weighed by unfair prejudice, confusion of the issues, or the
potential to mislead the jury. Ind. Evid. R. 403. In the context of third-party motive
evidence, these rules are based on the axiomatic evidentiary principle that before
evidence of a third party is admissible, the defendant must show some connection
between the third party and the crime. See. Holmes v. South Carolina. 547 U.S. 319,
327, 126 S. Ct. 1727, 164 L. Ed. 2d 503

Indiana cases follow this general rule.

In Joyner. supra the Supreme Court

reversed a trial court's exclusion of evidence that a third-party committed the
murder. 678 N.E.2d at 389-90. The defendant wanted to introduce evidence that a
third party was having an affair with the victim, worked with the victim, had engaged
in sexual relations with the victim the day before her disappearance, had argued with
the victim the day of her disappearance, and had been tardy to work and falsified his
time card the day after the disappearance. Id. The defendant had already presented
expert testimony that a hair sample found inside the plastic bag covering the victim's
head excluded the victim and the defendant, but was a ninety-eight to ninety-nine
percent probability match to the third party. Id- In this situation, the Supreme Court
held that the defendant had sufficiently connected the third party to the crime and
remanded the case for a new trial. Id.
In contrast, Lashbrook v. State. 762 N.E.2d 756, 757 (Ind. 2002), the defendant
tried to present evidence that a third party had said the victim "was gonna die." The
Court held that "[i]n stark contrast to Joyner, the defendant presents no material
evidence that [the third party] was connected to the crime. The phrase allegedly
uttered by [the third party] . . . does not tend to show that [he] committed the
murder." Id. at 758. Similarly, in Pelley v. State, 901 N.E.2d 494, 505-06 (Ind. 2009)
the defendant was convicted of murdering his father and mother, and he attempted
to suggested that someone from the victim’s past had a motive to commit the
murders. The defendant made an offer of proof, which outlined a claim that the victim
had worked at a Florida bank which was allegedly connected with a money

laundering scheme, and that on the day of the crime a limousine with Florida license
plates was seen near the murder scene.

However, the defendant presented no

evidence competent evidence establishing the claims regarding the Florida bank, and
he failed he failed to present any evidence connecting the bank or the limousine to
the murders. “Absent a more direct connection,” the court held that the trial court did
not abuse its discretion in excluding this speculative evidence.
In this case, through the PCR evidentiary hearings, Defendant attempted to meet
his burden of proof in part by attempting to shift blame for the robbery and murder
onto witness Dana Roberson. Defendant attempted to call Ms. Roberson as a witness
at the evidentiary hearing, however after the court appointed counsel to advise her
regarding her rights in this matter, she elected to refuse to answer any question.
Further, through Defendant’s brother, it was alleged that at the time of the crime in
this case Ms. Roberson drove a black pick-up truck that was repainted at some later
point in time. On this issue, Defendant points to trial testimony that a proprietor of
a shop adjacent to where the crime occurred reportedly saw a black truck at or near
the time when the murder likely occurred.

Larry Warren also testified that at some

point in time Ms. Roberson came into an unknown sum of money and that he had no
idea where it came from.
Defendant’s trial counsel testified that he called Ms. Roberson as a witness at the
Let to Bail Hearing and that she seemed to be attempting to shift the blame from
herself. He also acknowledged that her testimony could also equally be construed as
an innocent person testifying truthfully about an event that they were not involved

in.

Trial counsel testified that he may have been remiss in not pursuing Ms.

Roberson as an alternate suspect but he also acknowledged that he was aware of the
rules regarding third party suspects and motives and that he was not aware of any
evidence which directly connected Ms. Roberson to the crime.
In this case, the Court finds that the evidence proffered by Defendant is more
closely akin to the situations in Lashbrook and Pelley than in Joyner.

Here

Defendant has raised the barest inference of Ms. Roberson being associated with this
crime and, more importantly in this context, Defendant has pointed to no material
evidence which directly connects Ms. Roberson to the crime or the crime scene.
Without substantially more evidence, this Court cannot draw any rational inference
connecting the murder and the alleged repainting of the truck, or connecting Dana
Roberson’s possession of an indeterminate amount of money at an indeterminate
point in time. Lacking this, this Court does not find that trial counsel was ineffective
for failing to subpoena Dana Roberson at trial or in failing to further develop her as
an alternate suspect.
Defendant also attempts to argue that his trial counsel was ineffective for failing
to investigate and present Aaron Gill as a potential alternate suspect. In furtherance
of his burden regarding the rules of third party motives and witnesses, Defendant
argues that Aaron Gill’s fingerprints were lifted from a piece of paper or cellophane
recovered from the backroom of the victim’s business.
identified by Sgt. Knapp as belonging to Aaron Gill.

These fingerprints were

At the evidentiary hearing,

Defendant did not present any testimony from Aaron Gill but did present Aaron Gill’s

Marion. County criminal history. Defendant did not present any testimony as to how
Aaron Gill’s fingerprints came to be on the piece of paper, nor did he present any
testimony as to when the fingerprints were deposited, nor did he present any
testimony connecting Aaron Gill to the actual crime, or the crime scene, except that
his fingerprints were there.

At the PCR evidentiary hearing, defense counsel

indicated that he might have been remiss in failing to develop Aaron Gill as an
alternate suspect however, during cross examination, defense counsel acknowledged
that he was aware of no evidence that finked Aaron Gill to the actual crime.
On this specific issue, the Court finds that the evidence presented by Defendant
regarding Aaron Gill as an alternate suspect is most akin the Lashbrook, in that “the
defendant presents no material evidence that [the third party] was connected to the
crime.” Lashbrook, supra at 758. Consequently, the Court finds that defense counsel
was not ineffective for failing to present Aaron Gill as an alternate suspect, and that
if he had made the attempt, such an attempt would have been forestalled by the
State’s objection.
Further, on the issue of potential, alternate suspects the Court notes that through
his cross examination of Det. Alan Jones, defense counsel did, indeed, broach and
explore the topic of alternate suspects in the case. (Tr. 693-700). The record makes
clear that defense counsel attempted to introduce extremely similar type of evidence
as the Defendant now suggests, but for an entirely different “alternate suspect.”
Consequently, the Court finds that Defendant has wholly failed to establish his trial

1__ I

counsel was ineffective for failing to find and pursue alternate suspects, or in failing
to pursue a viable defense.
3. Conclusion
Again, post-conviction relief is a collateral attack on the validity of a criminal
conviction and the petitioner carries the burden of proof. Timberlake v. State, 753
N.E.2d 591, 597 (Ind. 2001). In the case at hand, the Court finds that Defendant has
failed to carry his burden. The law is with the State and against Defendant and no
relief can be granted.
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED by the Court that
the Petition for Post-Conviction Relief is hereby DENIED in its entirety.

Recommended for ai

?1 by:

x

Magistrate
ManOn Superior Court
Criminal Division

Approved and ordered by:

judge
Marion Superior Court
Criminal Division, Room 1

i__ t

Additional material
from this filing is
available in the
Clerk's Office.

